UNITED STATES SUPREME COURT

Benoit BROOKENS.
Petitioner
v.
Patrick PIZZELLA, Acting, Secretary,
Department of Labor.
Respondent

APPENDIX

1

APPENDIX
TABLE OF CONTENTS

Cases

Brookens v. Acosta, Secretary, U.S. Department of
Labor................................................................................... 3
Brookens v. Labor Department, U.S. Court of
Appeals for the D.C. Circuit...............................

28

Brookens v. Labor Department, U.S. Court of
Appeals, for D.C. Circuit, En Banc,.................

41

Brookens v. Department of Labor,
U.S. Court of Appeals for the Federal Circuit

49

Agency Decision
Brookens v. Labor, MSPB Decision

32

Documents
Anti-dumping Countervailing
Duties, Job Duty.
Removal.......................................

37

Letter for Eleanor J. Lauderdale
to Clerk, MSPB ...........................

39

2

Excerpt, Transcript, Oral Argument, U.S. Court of
Appeals for the Federal Circuit.................................. 43
Jacquen Lee v. Labor, MSPB Order

43

Brookens v. Labor Order, May 9, 2016

45

Exceptions to Administrative Judge Proposed Order,
Eleanor J. Lauderdale, Esquire
51

Federal Circuit, Form 10

77

Performance Improvement Plan (PIP)
Requirement in Labor Department
Job Vacancy Announcement Union Exhibit 16

79

V
3

UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA
BENOIT BROOKENS,
Plaintiff,
Civil Action No. 16-1390
(TJK)
v.
R. ALEXANDER ACOSTA,
Secretary, Department of Labor,
Defendant.
MEMORANDUM OPINION
Plaintiff Benoit Brookens worked as an economist for
the Department of Labor (“DOL,” sued in this case
through Defendant, the Secretary of Labor, in his
official capacity). Brookens claims that DOL
unlawfully terminated him, alleging that his firing
amounted to age- and racebased discrimination and
retaliation for his union activity. He litigated those
claims before the Merit Systems Protection Board
(“MSPB”), which rejected them. He then sought to
appeal the MSPB’s decision to the U.S. Court of
Appeals for the Federal Circuit. Because Brookens’

4

discrimination claims deprived the Federal Circuit of
jurisdiction, it transferred the case here.
DOL has moved to dismiss, arguing that Brookens’
failure to file this lawsuit within 30 days of when he
received the MSPB’s order deprives this Court of
subject matter jurisdiction.
The Court agrees and will dismiss the case.
I.

Factual and Procedural Background

Brookens is a former DOL economist with
degrees in law and economics. See ECF No. 18-1
(“Fed. Cir. Tr.”) at 9:21-10:4. DOL fired him in
2008. ECF No. 7 at 11 Brookens v. Dep’t of Labor,
120 M.S.P.R. 678, 680 (2014). He then filed
grievances for arbitration, claiming, among other
things, that his firing was both the result of
unlawful age and race discrimination Case L16cv01390-TJK Document 25 Filed 03/02/18 Page 1
of 17 2 and in retaliation for his participation in
protected union activity (such as a grievance he
had filed in 1999). Brookens, 120 M.S.P.R. at 680*
81. In 2012, an arbitrator disagreed and rejected
the claims. See id. Brookens appealed the
arbitrator’s decision to the MSPB, which referred
the case to an administrative law judge (“ALJ”).
Id. at 686.
The ALJ recommended ruling against
Brookens on the ground that he had not
substantiated his claims. Brookens v. Dep’t of

5

Labor, No. CB-7121-13-0012-V-1, 2014 WL
7146454 1H1 3-4 (M.S.P.B. Dec. 16, 2014). After
Brookens failed to file timely objections to the
ALJ’s recommendations, the MSPB adopted those
recommendations in an order dated December 16,
2014. See id.
5-7. The MSPB explained that
the order was its “final decision.” Id. If 8. The
order informed Brookens that he could seek
further review of his discrimination claims before
the Equal Employment Opportunity Commission.
Id. Alternatively, Brookens could seek review of
all of his claims in federal district court if he did
so in a timely manner, as the MSPB’s order
explained:
You must file your civil action with the
district court no later than 30 calendar
days after your receipt of this order. If you
have a representative in this case, and your
representative receives this order before
you do, then you must file with the district
court no later than 30 calendar days after
receipt by your representative. If you
choose to file, be very careful to file on
time.
Id. (emphasis added). Brookens does not dispute that
he received a copy of the order within five days of
when it was issued (that is, by December 21, 2014).
See ECF No. 23 (“Pl.’s Supp.”) at 1-2.
Brookens did not file suit in district court
within 30 days. Instead, on February 12, 2015, he

6

sought to appeal the MSPB’s decision to the U.S.
Court of Appeals for the Federal Circuit. See ECF
No. 1-2 (“Fed. Cir. Dkt.”) at 3. The Federal Circuit
required Brookens to file a form explaining the
status of any discrimination claims by checking one
of five boxes. His options Case L16-CV-01390-TJK
Document 25 Filed 03/02/18 Page 2 of 17 3 included:
that his case had never included discrimination
claims, that he had abandoned any discrimination
claims previously before the MSPB, and that the
MSPB’s ruling was jurisdictional. Brookens, who had
been represented by counsel before the MSPB but
was proceeding pro se at the time, erroneously
selected the first of those three options. See Form 10
Statement Concerning Discrimination, Brookens v.
Labor Dep’t, No. 15-3084 (Fed. Cir. Mar. 13, 2015),
ECF No. 3. The Federal Circuit subsequently asked
the parties to clarify whether Brookens had in fact
permanently abandoned his earlier discrimination
claims. See Fed. Cir. Dkt. at 5 (docket entry 57). The
Federal Circuit also asked the parties to address
whether the court had jurisdiction in light of
Kloeckner v. Solis, 568 U.S. 41 (2012), which held
that appeals from MSPB decisions in “mixed cases”
(that is, cases before the MSPB that include
discrimination claims) must be brought in district
court, not the Federal Circuit. See id.; Fed. Cir. Dkt.
at 5 (docket entry 57). Having once again retained
counsel by that point, Brookens explained that he did
intend to preserve his discrimination claims, but
asserted that the MSPB’s decision was jurisdictional

7

and thus appealable to the Federal Circuit. See ECF
No. 16-5; ECF No. 16-6.
At oral argument, the Federal Circuit panel
appeared convinced that it lacked jurisdiction, and
suggested that a transfer to this Court might be
more appropriate than outright dismissal. See Fed.
Cir. Tr. at 4:7-12, 6:1-9. DOL argued against a
transfer on the ground that Brookens had not met
the 30-day deadline for bringing suit in district court.
See id. at 11:5-13. The judges on the panel expressed
skepticism, opining that the “30-day deadline is not
jurisdictional” and therefore could be “waive [d]” by
the transferee district court. Id. at 11:14-17. When
pressed at oral argument, DOL agreed that the 30day deadline was not jurisdictional and could be
waived, id. at 11:18-19, but asserted that Brookens
could not justify equitable tolling of the 30'day Case
l:l6-cv-01390'TJK Document 25 Filed 03/02/18 Page
3 of 17 4 deadline because he had been aware of the
deadline, had been represented by counsel before the
MSPB, and himself had a legal education, see id. at
12:20-13:7. The panel, however, suggested that
equitable tolling was “a decision that the District
Court should make, not us,” and DOL agreed. Id. at
12:15-19. The panel further suggested that Brookens
might have an argument in favor of equitable tolling,
given that the MSPB’s order did not explain that
Brookens had a right to an appeal to the Federal
Circuit if he gave up his discrimination claims, see
id. at 13:8-17, and that Brookens may have been
“confused” about where to file, see id. at 12:9-12.

8

On May 9, 2016, the Federal Circuit issued a
per curiam order concluding that Brookens’ appeal
was timely, but that the court lacked subject matter
jurisdiction. See ECF No. 1-1 (“Fed. Cir. Order”). The
Federal Circuit transferred the case to this Court
pursuant to 28 U.S.C. § 1631. See Fed. Cir. Order.
After this Court received the case, DOL moved
to dismiss under Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6). See ECF No. 16 (“DOL Br.”).
DOL now argues that the 30- day deadline for filing
suit is, in fact, jurisdictional under the D.C. Circuit’s
holding in King v. Dole, 782 F.2d 274 (D.C. Cir. 1986)
(per curiam). Therefore, DOL argues, the case must
be dismissed for lack of subject matter jurisdiction
because Brookens filed the Federal Circuit appeal
more than 30 days after he received the MSPB’s
order. See DOL Br. at 3. DOL argues in the
alternative that, even if King is no longer controlling
precedent, the case should be dismissed as timebarred under Rule 12(b)(6). See id. at 3 n.l.
Brookens opposes on the ground that the
Federal Circuit’s order has already resolved DOL’s
motion by holding that his claims were timely and
that this Court has jurisdiction. See ECF No. 18
(“PL’s Opp’n”) at 3-8. Brookens further argues that
the case should not be Case L16-cv-01390-TJK
Document 25 Filed 03/02/18 Page 4 of 17 5 dismissed
merely because Brookens erred by filing in the wrong
court, especially since he did so within the 60-day

9

deadline for taking appeals from the MSPB to the
Federal Circuit. See id. at 9.
II.

Legal Standard

Courts “have an independent obligation to
determine whether subject-matter jurisdiction
exists, even in the absence of a challenge from
any party.” Arbaugh v. Y&H Corp., 546 U.S. 500,
514 (2006). Thus, district courts must dismiss any
claim over which they lack subject matter
jurisdiction, regardless of when the challenge to
subject matter jurisdiction arises. See Fed. R. Civ.
P. 12(h)(3). When a party moves to dismiss for
lack of subject matter jurisdiction under Rule
12(b)(1), “the person seeking to invoke the
jurisdiction of a federal court. . . bears the burden
of establishing that the court has jurisdiction.”
Hamidullah v. Obama, 899 F. Supp. 2d 3, 6
(D.D.C. 2012). “Although a court must accept as
true all of the [plaintiffs] factual allegations
when reviewing a motion to dismiss pursuant to
Rule 12(b)(1), factual allegations will bear closer
scrutiny in resolving a 12(b)(1) motion than in
resolving a 12(b)(6) motion for failure to state a
claim.” Id. (alterations, citations and internal
quotation marks omitted).
A motion to dismiss under Rule 12(b)(6) “tests
whether a plaintiff has properly stated a claim.”
BEG Invs., LLC v. Alberti, 85 F. Supp. 3d 13, 24
(D.D.C. 2015). “A court considering such a motion
presumes that the complaint’s factual allegations

10

are true and construes them liberally in the
plaintiffs favor.” Id. Nonetheless, the complaint
must set forth enough facts to “state a claim to
relief that is plausible on its face.” Id. (quoting
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). “If‘no
reasonable person could disagree on the date’ on
which the cause of action accrued, the court may
dismiss a claim on statute of limitations grounds.”
Potts v. Howard Univ. Hosp., 623 F. Supp. 2d 68,
72 (D.D.C. 2009) (quoting Smith v. Brown &
Williamson Tobacco Corp., 3 F. Supp. 2d 1473,
1475 (D.D.C. 1998)). “A complaint will be
dismissed under Rule 12(b)(6) as ‘conclusively
time-barred’ if‘a trial court determines that the
allegation of other facts Case D16-cv-01390-TJK
Document 25 Filed 03/02/18 Page 5 of 17 6
consistent with the challenged pleading could not
possibly cure the deficiency.’” Momenian v.
Davidson, 878 F.3d 381, 387 (D.C. Cir. 2017)
(internal quotation marks omitted) (quoting
Firestone v. Firestone, 76 F.3d 1205, 1209 (D.C.
Cir. 1996)); see also Tran v. Citibank, N.A., 208 F.
Supp. 3d 302, 305 (D.D.C. 2016). “Yet ‘courts
should hesitate to dismiss a complaint on statute
of limitations grounds based solely on the face of
the complaint’ because ‘statute of limitations
issues often depend on contested questions of
fact.’” Momenian, 878 F.3d at 387 (quoting
Firestone, 76 F.3d at 1209).
III. Analysis

11

A. Subject Matter Jurisdiction
The Court agrees with DOL that this case should be
dismissed for lack of subject matter jurisdiction
because Brookens failed to bring suit within 30 days.
Under 5 U.S.C. § 7703, district courts have
jurisdiction to review MSPB decisions in “mixed
cases”—that is, cases involving discrimination claims
alongside other employment-related claims. See 5
U.S.C. § 7703(b)(2); Perry v. MSPB, 137 S. Ct. 1975
(2017); Kloeckner v. Solis, 568 U.S. 41 (2012).
“Notwithstanding any other provision of law, any
such case . . . must be filed within 30 days after the
date the individual filing the case received notice of
the judicially reviewable action . ...” 5 U.S.C. §
7703(b)(2). That 30-day deadline is jurisdictional and
may not be extended. See Kang v. Dole, 782 F.2d 274,
275 (D.C. Cir. 1986) (per curiam) (affirming the
district court’s dismissal for lack of subject matter
jurisdiction); see also Butler v. West, 164 F.3d 634,
638 (D.C. Cir. 1999) (describing King’s holding as
jurisdictional).
In supplemental submissions on the issue of
when Brookens “received notice” of the MSPB’s order
for purposes of the statute, DOL and Brookens agree
that he received a copy of the MSPB’s order within
five days of when it was issued—that is, no later
than December 21, Case L16-cv-01390-TJK
Document 25 Filed 03/02/18 Page 6 of 17 7 2014. See

12

PL’s Supp. at 1-2; ECF No. 21 at 8.1! Nonetheless, he
filed this case in the Federal Circuit on February 12,
2015, more than 30 days after he received notice of
the MSPB’s order. Therefore, the Court lacks
jurisdiction over this action, which must be
dismissed.
Brookens’ primary argument is that this Court
is bound to accept jurisdiction because of the Federal
Circuit’s transfer order, and he cites Christianson v.
Colt Industries Operating Corp., 486 U.S. 800
(1988).22 See Pl.’s Opp’n at 3. In Christianson, the
Federal Circuit concluded that it lacked jurisdiction
over an appeal and transferred the case to the
Seventh Circuit under 28 U.S.C. § 1631. See 486 U.S.
at 806. The Seventh Circuit disagreed and
transferred the case back. See id. The Federal
Circuit, while continuing to believe it lacked
jurisdiction, nonetheless proceeded to consider the
appeal. See id. at 807. The Supreme Court held that
to be error, because courts may not hear cases over
which they lack jurisdiction. Id. at 818. Nonetheless,

11 Brookens asks the Court to disregard any “new
argument” raised by DOL in its supplemental
submission unless he is given the opportunity to
respond. See Pl.’s Supp. at 1. No further briefing is
necessary, because the Court has considered the
supplemental submissions only insofar as they agree
on the fact that Brookens “received notice” by
December 21, 2014.
2 2

13

the Court expressed concern that “every borderline
case” might “culminate in a perpetual game of
jurisdictional ping-pong.” Id. The Court therefore
stated, in dictum, that transferee courts should apply
“lawof-the-case principles” to transferor courts’
decisions under § 1631. 486 U.S. at 819. That is, the
transferee court should reach a different conclusion
on jurisdiction only if the decision to transfer was
“clearly erroneous” or not “plausible.” Id.
In this case, the Federal Circuit concluded
that it lacked jurisdiction and transferred the case
here pursuant to 28 U.S.C. § 1631. See Fed. Cir.
Order. The panel’s statements at oral. See, e.g.,
Ukiah Adventist Hosp. v. FTC, 981 F.2d 543, 546
(D.C. Cir. 1992). Those cases are clearly inapposite
because DOL is not seeking appellate review of the
Federal Circuit’s order. Case D16-cv-01390-TJK
Document 25 Filed 03/02/18 Page 7 of 17 8 argument
suggested that it believed this Court to have
jurisdiction. See Fed. Cir. Tr. at 11:14-17. Indeed, the
panel must have concluded that to be the case,
because the statute only authorizes transfer to a
“court in which the action or appeal could have been
brought at the time it was filed or noticed.” 28 U.S.C.
§ 1631; see Rick’s Mushroom Serv., Inc. v. United
States, 521 F.3d 1338, 1347 (Fed. Cir. 2008) (“The
plain language of the statute requires that the
transferee court have jurisdiction over the claim.”).
King, however, compels the Court to conclude
that the action could not have been brought here at

14

the time it was filed, because Brookens’ failure to file
on time deprives this Court of jurisdiction. See
Butler, 164 F.3d at 638>' King, 782 F.2d at 275. There
is no indication in the record that the King case was
ever brought to the Federal Circuit’s attention. Its
decision was thus clearly erroneous insofar as it
found jurisdiction here, because the court overlooked
controlling authority. See In re Zermeno-Gomez, 868.
F.3d 1048, 1053 (9th Cir. 2017) (holding it is “clear
error for a district court to disregard a published
opinion” of its court of appeals). The Court also notes
that this case will not “culminate in a perpetual
game of jurisdictional pingpong,” Christianson, 486
U.S. at 818, because the Court agrees with the
Federal Circuit’s conclusion that it lacked subject
matter jurisdiction and will dismiss the case instead
of ordering a re-transfer back to the Federal Circuit.
And it does not matter that DOL appeared to
concede at oral argument that the relevant statute of
limitations is nonjurisdictional, see Fed. Cir. Tr. at
11-18-19, because the Court must ensure it has
subject matter jurisdiction independent of the
parties’ wishes.
As DOL acknowledges, legal developments
since King—in particular, a number of Supreme
Court decisions beginning with Irwin v. Department
of Veterans Affairs, 498 U.S. 89 (1990)—have drawn
the viability of King’s holding into question. See DOL
Br. at 3 n.l; Case L16-cv-01390-TJK Document 25
Filed 03/02/18 Page 8 of 17 9 Montoya v. Chao, 296
F.3d 952, 955-57 (10th Cir. 2002). See generally

15

Fedora v. MSPB, 848 F.3d 1013, 1017-26 (Fed. Cir.
2017) (Plager, J., dissenting) (discussing that line of
cases). In Irwin, the Supreme Court held that 42
U.S.C. § 2000e-16(c), which at that time required
that an employment discrimination suit against the
government be brought within 30 days of receiving
notice of final agency action, is not a jurisdictional
bar depriving district courts of subject matter
jurisdiction, but is instead subject to equitable
tolling. 498 U.S. at 9U92, 94-95. Subsequent cases
cast further doubt on the propriety of treating
statutes of limitations as jurisdictional. See, e.g.,
Arbaugh v. Y&H Corp., 546 U.S. 500, 510 (2006).
Relying on Irwin, two judges in this District
have concluded that King is no longer controlling
law. See Williams v. Court Servs. & Offender
Supervision Agency for D.C., 772 F. Supp. 2d 186,
188-89 (D.D.C. 2011), vacated on reconsideration,
840 F. Supp. 2d 192 (D.D.C. 2012); Becton v. Pena,
946 F. Supp. 84, 86-87 (D.D.C. 1996). The Court
must part ways with those decisions, however,
because “district judges, like panels of [the D.C.
Circuit], are obligated to follow controlling circuit
precedent until either [the Circuit], sitting en banc,
or the Supreme Court, overruled] it.” United States
v. Torres, 115 F.3d 1033, 1036 (D.C. Cir. 1997).
Controlling precedent may be “effectively overruled,”
but only if a later Supreme Court decision
“eviscerates” its reasoning. Perry v. MSPB, 829 F.3d
760, 764 (D.C. Cir. 2016), rev’d on other grounds, 137
S. Ct. 1975 (2017). And “[l]ower courts . . . , out of

16

respect for the great doctrine of stare decisis, are
ordinarily reluctant to conclude that a higher court
precedent has been overruled by implication.” Levine
v. Heffernan, 864 F.2d 457, 461 (7th Cir. 1988); see
also Agostini v. Felton, 521,U.S. 203, 207 (1997)
(“[L]ower courts should follow the case which directly
controls, leaving to this Court the prerogative of
overruling its own decisions.”). [Case L16-cv01390TJK Document 25 Filed 03/02/18 Page 9 of 17 10]
This Court cannot conclude that the Supreme Court
has so thoroughly “eviscerated” King as to effectively
overrule it.
First, a careful comparison of King’s reasoning
with that of Irwin and subsequent Supreme Court
decisions in this area does not compel that
conclusion. Irwin announced a general rule that
there is a “rebuttable presumption” that statutes of
limitations in suits against the United States are not
jurisdictional, but rather are subject to equitable
tolling. 498 U.S. at 95- 96. As the Court subsequently
explained in greater detail, courts had often
mislabeled statutes of limitations as “jurisdictional”
and should be more “meticulous” in applying that
term. Kontrick v. Ryan, 540 U.S. 443, 454-55 (2004).
In fact, “most time bars are nonjurisdictional.”
United States v. Kwai Fun Wong, 135 S. Ct. 1625,
1632 (2015). But not all of them. A statute of
limitations is jurisdictional if a “clear statement” to
that effect can be drawn from the statute’s text,
context, and legislative history. Id.

17

The opinion in King at least arguably
undertakes such an analysis. King started with the
text, grounding its conclusion in “the clear and
. emphatic language of the statutory provision at
issue.” 782 F.2d at 276 (emphasis added). “By
providing that ‘[njotwithstanding any other provision
of law, any such case filed . . . must be filed within 30
days after the date the individual filing the case
received notice of the judicially reviewable action,’
Congress left no doubt as to the mandatory nature of
the time limit.” Id. (alterations in original) (citation
omitted). That language is not at all similar to the
language construed by the Court in Irwin. See 498
U.S. at 94. Rather, it resembles language that
another circuit court has found to be jurisdictional,
Irwin and its progeny notwithstanding. See Aloe
Vera of Am., Inc. v. United States, 580 F.3d 867, 87172 (9th Cir. 2009) (holding that the phrase
“notwithstanding any other provision of law” showed
that “Congress intended statute of limitations to be
absolute”). As a result, the King court’s Case B16-cv01390'TJK Document 25 Filed 03/02/18 Page 10 of
17 11 reasoning is hardly eviscerated by those cases.
Indeed, in a case post-dating Irwin, the D.C. Circuit
cited King for the proposition that § 7703(b)(2) is a
jurisdictional time bar. See Butler, 164 F.3d at 638.
King also looked to the context of § 7703(b)(2),
and specifically its relationship to a neighboring
subsection, § 7703(b)(1). That subsection, which
governs appeals from the MSPB to the Federal
Circuit, is similarly worded to § 7703(b)(2). In King,

18

the D.C. Circuit noted that it had already
determined the timeliness provision of § 7703(b)(1) to
be jurisdictional. See 782 F.2d at 275-76. Thus, it
concluded, that construction should apply equally to
§ 7703(b)(2) according to traditional canons of
statutory interpretation. Id. Courts have not
abandoned that reading of § 7703(b)(1) since King.
To the contrary, the Federal Circuit recently
reaffirmed its pre-Irwin precedent holding that the
time limit in § 7703(b)(1) is jurisdictional. See
Fedora, 848 F.3d at 1014-16. And another court in
this District has cited King for that very proposition.
See Abou-Hussein v. Mabus, 953 F. Supp. 2d 251,
262 (D.D.C. 2013).
Second, given the highly contextual
application of the Supreme Court’s “clear statement”
requirement, courts have been reluctant to conclude
that the Irwin line of cases overturned settled law
interpreting whether other statutes are
jurisdictional. As another judge in this District has
observed, “Irwin does not, as a general matter,
overrule prior cases in which the courts have
declared a specific statute to be jurisdictional.” Coal
River Energy, LLC v. U.S. Dep’t of the Interior, 931
F. Supp. 2d 64, 68 n.3 (D.D.C. 2013), affd, 751 F.3d
659 (D.C. Cir. 2014). For example, Irwin and its
progeny did not disturb prior Supreme Court
precedent holding that the statute of limitations for
actions in the Court of Federal Claims is
jurisdictional. See John R. Sand & Gravel Co. v.
United States, 552 U.S. 130, 136-39 (2008). Nor did

19

they “callD into Case l:l6-cv01390-TJK Document
25 Filed 03/02/18 Page 11 of 17 12 question [the
Supreme Court’s] longstanding treatment of
statutory time limits for taking an appeal as
jurisdictional.” Bowles v. Russell, 551 U.S. 205, 214
(2007).
Third, Irwin left room for a circuit split to
develop regarding the interpretation of § 7703(b)(2),
providing further evidence that the Supreme Court
did not “eviscerate” King and thus effectively
overrule it. To be sure, the majority of circuit courts
to consider the issue after Irwin have held that the
statute of limitations in § 7703(b)(2) is
nonjurisdictional. See Oja v. Dep’t of Army, 405 F.3d
1349, 1357-58 (Fed. Cir. 2005) (collecting cases).
Nonetheless, after Irwin was decided, the Sixth
Circuit reaffirmed an earlier case, Hilliard v. USPS,
814 F.2d 325 (6th Cir. 1987), that held the contrary.
Dean v. Veteran’s Admin. Reg’l Office, 943 F.2d 667,
669-70 (6th Cir. 1991), vacated on other grounds, 503
U.S. 902 (1992); see also Felder v. Runyon, No. 001011, 2000 WL 1478145, at *2 (6th Cir. Sept. 26,
2000) (citing Dean favorably). While conceding that
it might reach a different outcome if “writing on a
clean slate,” the Sixth Circuit concluded that
“Hilliard is the law in this circuit and it was not
overruled by the Supreme Court in Irwin.” Dean, 943
F.2d at 670. So too here.
Finally, the Supreme Court’s only discussion
of the specific time bar at issue, from its unanimous

20

2012 opinion in Kloeckner, is ambiguous at best. At
first glance, the Kloeckner opinion supports a
conclusion that King is no longer good law: the Court
described the second sentence of § 7703(b)(2) (which
contains the time bar) as “nothing more than a filing
deadline” and drew a sharp line between it and the
first, jurisdictional sentence (which gives district
courts authority to hear “mixed cases” arising from
MSPB proceedings). 568 U.S. at 52. But the same
paragraph of the Court’s opinion, when parsed with
care, also points in the opposite direction:
[The second sentence of § 7703(b)(2)]
sets the clock running for when a case that
belongs in district court must be filed there.
What it does not do is to further define which
timely-brought cases belong in district court
instead of in the Federal Circuit. Describing
Case 1:16‘cv 01390’TJK Document 25 Filed
03/02/18 Page 12 of 17 13 those cases [i.e., the
“timely-brought cases” that “belong in district
court”] is the first sentence’s role.
Id. at 53 (emphases in closing sentence added). This
passage arguably reinforces King insofar as it
suggests that the jurisdictional component of §
7703(b)(2), by describing which “timely brought cases
belong in district court,” incorporates the time bar in
the second sentence. 568 U.S. at 53 (emphasis
added).
At the end of the day, trying to distill a clear
lesson from Kloeckner about the jurisdictional

21

nature of this time bar is difficult,.at best. Kloeckner
does not speak directly to the issue at hand. The
Court’s discussion of § 7703(b)(2) responded to an
argument that the time bar somehow extended the
jurisdiction of the Federal Circuit. See 568 U.S. at
50-54. The Court did not expressly consider whether
the time bar limited the jurisdiction of the district
courts, and it would be surprising if the Court
intended to reach that issue, given that it did not cite
any of the cases in the Irwin line of authority. See
568 U.S. at 52-53.
It may well be that the D.C. Circuit will
conclude at some point that King is no longer good
law. But that day has not come. In the absence of
clear Supreme Court precedent overruling King, this
Court will “follow the case which directly controls,
leaving to [the D.C. Circuit] the prerogative of
overruling its own decisions.” Agostini, 521 U.S. at
207. The Court thus concludes that King’s
jurisdictional holding remains binding on district
courts in this Circuit and compels dismissal of this
case for lack of subject matter jurisdiction.
B. Equitable Tolling
Because of the uncertainty over King’s
jurisdictional holding, the Court will address DOL’s
alternative argument that the case should be
dismissed as time-barred under Rule 12(b)(6). That
issue was not decided by the Federal Circuit’s order,
and therefore is not part of the law of the case. See
Fed. Cir. Order. Indeed, at oral argument, the panel

22

suggested that Case D16-cv-01390-TJK Document 25
Filed 03/02/18 Page 13 of 17 14 whether to apply the
doctrine of equitable tolling was “a decision that the
District Court should make, not us.” Fed. Cir. Tr. at
12D6-17. The Court would dismiss the case as timebarred even if it had jurisdiction because Brookens
has not alleged any facts that would warrant tolling
the statute of limitations.
“[A] litigant seeking equitable tolling bears the
burden of establishing two elements- (l) that he has
been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way.” Mizell
v. SunTrust Bank, 26 F. Supp. 3d 80, 87 (D.D.C.
2014) (quoting Pace v. DeGuglielmo, 544 U.S. 408,
418 (2005)). The D.C. Circuit has emphasized that
equitable tolling is justified “only in extraordinary
and carefully circumscribed [in]stances.” Norman v.
United States, 467 F.3d 773, 776 (D.C. Cir. 2006)
(quoting Smith-Haynie v. District of Columbia, 155
F.3d 575, 580 (D.C. Cir. 1998)). For example, such
tolling is appropriate where “despite all due diligence
[a plaintiff] is unable to obtain vital information
bearing on the existence of her claim.” Id. (alteration
in original) (quoting Smith-Haynie, 155 F.3d at 579).
“The circumstance that stood in a litigant’s way
cannot be a product of that litigant’s own
misunderstanding of the law or tactical mistakes in
litigation. When a deadline is missed as a result of a
‘garden variety claim of excusable neglect’ or a
‘simple miscalculation,’ equitable tolling is not
justified.” Menominee Indian Tribe of Wis. v. United

23

States, 764 F.3d 51, 58 (D.C. Cir. 2014) (quoting
Holland v. Florida, 560 U.S. 631, 651 (2010)), affd,
136 S. Ct. 750 (2016). Thus, equitable tolling is
available “only where the circumstances that caused
a litigant’s delay are both extraordinary and beyond
its control.” Menominee Indian Tribe of Wis. v.
United States, 136 S. Ct. 750, 756 (2016) (emphasis
in original).
Here, Brookens’ only argument for equitable
tolling is that he erroneously believed that the
Federal Circuit was the right forum for review of the
MSPB’s order and filed within the time Case F16-cv01390'TJK Document 25 Filed 03/02/18 Page 14 of
17 15 limits prescribed for an appeal to that forum.
See Pl.’s Opp’n at 9. The sources of his confusion, he
suggests, are that the MSPB’s order “did not instruct
Plaintiff as to the limitations when filing in the
Federal Circuit Court of Appeals” and that the
“name of the court, standing alone, is reason enough
for a non-practitioner in the federal sector”—much
less a litigant proceeding pro se, as Brookens was at
the time—“to believe that it is the proper forum
within which to plead an appeal.” Id.
Such misapprehension of the law is facially
insufficient to toll the statute of limitations. See
Menominee Indian Tribe, 764 F.3d at 58; Miller v.
Downtown Bid Servs. Corp., No. 17-cv389 (RBW),
2017 WL 5564550, at *4 (D.D.C. Nov. 17, 2017)
(applying the same rule to a pro se litigant).
Moreover, the law in 2014 was hardly as confusing

24

as Brookens implies. While the rules for MSPB
proceedings may be complex and at times confusing,
“even within the most intricate and complex systems,
some things are plain.” Kloeckner, 568 U.S. at 49. In
2012, Kloeckner clearly held that federal employees
appealing MSPB decisions in “mixed cases” that
include discrimination claims must file in district
court, not the Federal Circuit. See id. Therefore,
when he received the MSPB’s order in December
2014, Brookens faced a clear choice: he could
abandon his discrimination claims and appeal to the
Federal Circuit within 60 days, or he could keep his
discrimination claims and bring suit in federal
district court within 30 days. He instead chose the
path foreclosed by Kloeckner, bringing suit in the
Federal Circuit while attempting to preserve his
discrimination claims.
Admittedly, jurisdiction over “mixed cases” did
not remain clear in every respect after Kloeckner.
Both the D.C. and Federal Circuits held that, despite
Kloeckner, the Federal Circuit continued to have
jurisdiction over “mixed cases” if the MSPB’s ruling
was itself jurisdictional. See Perry v. MSPB, 829
F.3d 760, 762 (D.C. Cir. 2016), rev’d, 137 S. Ct. 1975
(2017); Conforto Case l:l6-cv01390'TJK Document
25 Filed 03/02/18 Page 15 of 17 16 v. MSPB, 713 F.3d
1111, 1117 (Fed. Cir. 2013), abrogated by Perry v.
MSPB, 137 S. Ct. 1975 (2017). (In 2017, the Supreme
Court disagreed. See Perry, 137 S. Ct. 1975.) But
that nuance has no relevance to this case. The
MSPB’s order was clearly not decided on

25

jurisdictional grounds; rather, because Brookens had
failed to file timely objections, the MSPB adopted the
ALJ’s ruling, which had rejected Brookens’ claims on
the merits. See Brookens, 2014 WL 7146454 f 7.
Any confusion about where to file this case
was thus subjective and personal to Brookens, whose
only real excuse is that he was proceeding pro se.
Brookens’ “inability to retain an attorney is not an
extraordinary circumstance” sufficient to toll the
statute of limitations. Miller, 2017 WL 5564550, at
*5. But even if it could be, it would not be here.
Brookens has a law degree. See Fed. Cir. Tr. at 9:2110:2. He is also a frequent litigator who by 2014 had
filed several pro se lawsuits and appeals in this
Circuit. See, e.g., Brookens v. Solis, 616 F. Supp. 2d
81 (D.D.C.), reconsideration denied, 635 F. Supp. 2d
1 (D.D.C. 2009), affd, No. 09-5249, 2009 WL 5125192
(D.C. Cir. Dec. 9, 2009), reh’g en banc denied, No. 095249 (D.C. Cir. Mar. 31, 2010), cert, denied, 562 U.S.
890 (2010). Most importantly, Brookens should have
known to file in district court within 30 days. That is
because the MSPB told him so in unambiguous
language, along with a warning to “be very careful to
file on time.” Brookens, 2014 WL 7146454. When
Brookens disregarded that clear directive and filed in
the Federal Circuit, he did so at his own peril.
Moreover, if Brookens was confused about where to
file suit, he could have filed in the Federal Circuit
within 30 days, thereby safeguarding the possibility
of a transfer to this Court by ensuring that the case
would be timely regardless of which statute of

26

limitations was ultimately determined to apply.
Inexplicably, he waited. Case l-16-cv-01390-TJK
Document 25 Filed 03/02/18 Page 16 of 17 17
Finally, even after filing in the wrong court at
the wrong time, Brookens had one last chance to
save at least part of his case. After discovering the
jurisdictional problem posed by Brookens’ appeal, the
Federal Circuit asked him whether he had
abandoned his discrimination claims. Fed. Cir. Dkt.
at 5 (docket entry 57). Had Brookens said “yes,” he
could have preserved the Federal Circuit’s
jurisdiction over the rest of his case. Instead, acting
through counsel (which he had retained by that
point), he continued to press his discrimination
claims and advanced the meritless theory that the
MSPB’s ruling was jurisdictional. See ECF No. 16-5.
Brookens thereby argued his way out of federal court
entirely.
In sum, Brookens’ failure to file on time and in
the right court was entirely the result of his
“misunderstanding of the law” and “tactical mistakes
in litigation.” Menominee Indian Tribe, 764 F.3d at
58. Therefore, even if the statute of limitations in 5
U.S.C. § 7703(b)(2) were subject to equitable tolling,
the Court would find no basis for such tolling and
dismiss the case as timebarred under Rule 12(b)(6).
IV.

Conclusion

For the reasons set forth above, the Court
GRANTS DOL’s motion and DISMISSES

27

the action for lack of subject matter
jurisdiction, in a separate order.
/s/ Timothy J. Kelly TIMOTHY J. KELLY
United States District Judge
Date: March 2, 2018

28

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-5129 September Term, 2018
i:i6-cv-01390-T JK
Filed On-' September 19, 2018
Benoit Otis Brookens, II, )
Appellant
)
v.
Department of Labor,
)
Appellee
BEFORE: Henderson, Millett, and Wilkins, Circuit
Judges
ORDER
Upon consideration of the motion for summary
affirmance, the response thereto,
and the reply, it is
ORDERED that the motion for summary affirmance
be granted.
The merits of the parties' positions are so clear as to
warrant summary action. See Taxpayers
Watchdog, Inc. v. Stanley, 819 F.2d 294, 297 (D.C.
Cir. 1987) (per curiam). Appellant alleged that he
was removed from his position based on race and age
discrimination and in retaliation for protected union
activity. After an administrative judge with the
Merit Systems Protection Board ("MSPB") concluded
that appellant had failed to prove discrimination or
retaliation, the IMISPB adopted the administrative

29

judge's recommended decision in a final order, and
informed appellant that any civil action
must be filed in district court within 30 days of
receiving the order. See 5 U.S.C. § 7703(b)(2);
Kloeckner v. Solis, 568 U.S. 41,49-50 (2012).
Appellant conceded that he did not file his civil suit
within 30 clays of receiving the MSPB's final order.
Assuming that the 30'day time limit is subject to
equitable tolling, appellant failed to offer a valid
basis to toll that deadline. See !2yson v..Q~, 710 F.3d
415, 42'1 (D.C. Cir. 2013) (The court will "toll a filing
deadline 'only in extraordinary and carefully
circumscribed instances.'").
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published,
The Clerk
is directed to withhold issuance of the mandate
herein until seven days after resolution of any timely
petition for rehearinq or petition for rehearing en
banc. See Fed. R. App, P. 41(b); D.C. Cir. Rule 41.
Per Curiam

30

USCA Case #18-5129 Document # 1773848 Filed
02/19/2019 Page 1 of 1
United States Court of Appeals
For the District of Columbia
No. 18-5129
2018

September Term
1:16-CV-01390-TJK
Filed on: Feb. 19,

2019
Benoit Otis Brookens, II
Appellant
v.
Department of Labor
Appellee
BEFORE:

Garland, Chief Judge; and Henderson,
Rogers, Tatel, Griffith, Srinivasan,
Millett, Pillard, and Katsas, Circuit
Judges
ORDER

Upon consideration of the petition for rehearing in
banc, and the absence of a request by any member of
the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:

31

Mark J. Langer,
Clerk
BY:

/s/
Ken Meadows
Deputy Clerk

32

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
BENOIT BROOKENS
NUMBERS
Appellant
1

DOCKET
CB-7121-13-0012-V-

v.
DEPARTMENT OF LABOR
16, 2014
Agency

DATE: December

THIS FINAL ORDER IS NONPRECEDENTIAL
Eleanor J. Lauderdale, Esquire, Washington, DC for
the Appellant
Rolando Valdez, Esquire, Washington, DC for the
Agency
BEFORE
Susan Tsui Grundmann, Chairman
Anne M. Wagner, Vice Chairman
Mark A. Robbins, Member
FINAL ORDER
Pursuant to the Board’s instructions, the
administrative judge recommendation on the
appellant’s allegations of discrimination based on age
and race and the appellant’s allegations of retaliation
for engaging in union activity. For the reasons set

33

forth below, we adopt the administrative judge’s
findings.
[p. A-3] After he issued the Recommended Decision,
the administrative judge informed the parties that
the Recommendation would be forwarded back to the
Board and that the parties could file exceptions to
the Recommendations with the Clerk of the Board
within 20 days of the issuance of the
Recommendations, or by September 25, 2014.
Brookens v. Department of Labor, MSPB Docket No.
CB-7121-13-0012-H-1, Tab 13. On September 26,
2014, the appellant’s representative requested an
extension of time (EOT) to file exceptions to the
administrative judge’s Recommended Decision.
Brookens v. Department of Labor, MSPB Docket CB7121713-0012-V-l, Tab. 32. The Board granted the
request, giving the appellant until October 20, 2104,
to file the exceptions. Id. Tab 33. The Board denied
the request for an additional EOT because it was
filed after the due date for the filing of exceptions. Id.
The appellant’s representative has filed three
responses to the denial, claiming that she lost the
exceptions that she had drawn up because of
computer problems. Id. Tabs. 36-38.
The Board’s regulations provide that requests for an
EOT must be filed on or before the date that the
pleading is due and that the motion must be
accompanied by an affidavit or sworn statement. See
5 C.F.R. Art. 1201.114(f). Here, as noted, the
appellant’s EOT request was filed after the date that
the pleading was due and was not accompanied by
an affidavit or a sworn statement. Further, even if
the appellant’s representative’s alleged computer
problems interfered with her preparation of

34

exceptions, there is no assertion that they interfered
with her ability to timely file an EOT request.
Accordingly, we find that the appellant’s
representative’s objections to the denial of her EOT
request are unavailing.
Absent exceptions to the administrative judge’s
Recommended Decision, and based upon our review
of the decisions, we adopt the Recommendation. The
appellant failed to prove his affirmative defense of
discrimination on the basis of age or race and failed
to establish that the agency’s action constituted
retaliation for his union activity in violation of 5
U.S.C. art. 2302(b)(9). As a result, we deny the
appellant’s request for review of the arbitrator’s
decision affirming the agency’s removal action. This
is the final decisions of the Merit Systems Protection
Board on the appellant’s request for arbitration
review. Title 5 of the Code of Federal Regulations,
section 1201.113(c) 5 C.F.R. Art. 1201.113(c)).

NOTICE TO THE APPELLANT REGARDING
YOUR FUTHER REVIEW RIGHTS
Discrimination Claims: Administrative Review
You may request review of this final decision
on your discrimination claims by the Equal
Employment Opportunity Commission (EEOC). See
Title 5 of the United States Code, section 7702(b)(5.
U.S.C. Art. 7702(b)(1). If you submit your request by
regular U.S. mail, the address to the EEOC is:
Office of Federal Operations
Equal Employment Opportunity Commission
131 M Street, NE
Suite 5SW12G

35

Washington, DC 20507
You should send your request to the EEOC no
later than 30 calendar days after receipt of this
order. If you have a representative is this case, and
your representative receives this order before you do,
then you must file with the EEOC no later than 30
days after receipt by your representative. If you
choose to file, be very careful to file on time.
Discrimination and Other Claims: Judicial Action
If you do not request EEOC to review this
final decision on your discrimination claims, you may
file a civil action against the agency on both your
discrimination and your other claims in an
appropriate United States district court. See 5 USC
Art. 7703(b)(2). You must file your civil action with
the district court no later than 30 calendar days after
your receipt of this order. If you have a
representative in this case, and your representative
receives this order before you do, then you must file

36

with the district court no later than 30 days after
receipt by your representative. If you choose to file,
be very careful to file on time. If the action involves a
claim of discrimination based on race, color, religion,
sex, national origin, or disabling condition, you may
be entitled to representation by a court —appointed
lawyer and to waive any requirement of prepayment
of fees, costs, and other security. See 42 U.S.S Art.
2000e5(f) and 29 U.S.C. Art. 794a.
FOR THE BOARD:
William D. Spencer
Clerk of the Board
Washington, DC

37

Case- 15-3084 Document: 11 Page-- 46
File d:06/04/2015
Brookens, Benoit-ILAB
From:

Date:

Romero,
Carlos-ILAB
/Union
Exhibit
/
Tuesday, May 1, 2007 12:31 PM
/22

/

To:
Subject:

Brookens, Benoit-ILAB
RE: Assignments

Benoit,
As discussed in our meeting today, your assignments are
as follows:
Primary,- GSP Products
Back-up,- AD-CVD
Please let me know if you like to be considered for
Primary responsibilities AD-CVD. Mercosur has enough
coverage with other division staff, so you are no longer
assignged to this topic. Developing countries/small
economies is not active, so please let me know if there are
any work assignments (and relevant to ILAB/DOL goals)
on this topic and I will assess whether it should be put
back on your list.
Thank you,
Carlos
Carlos H. Romero
Deputy Director, Office of Trade and Labor Affairs
Bureau of International Labor Affairs

38

U.S.,Department of Labor
(202)693-4886, (202)693-4851 fax
Romero. carlos@dol. gov
From-'

Sent:
To:
Cc:

Brookens, Benoit-ILAB
Friday, April 20, 2006 5:38 p.m.
Romero, Carlos-ILAB
Pettis, Maureen-ILAB; Hahn, SueryunILAB; Valdes, AnaTLAB; Zollner, Anne-ILAB; von
Reyn, Jacob-ILAB

Subject: Assignments
My portfolio is attached.
« File: Per-assignments-4-20-07.doc»

39

Case 15-3084
07/31/2015

Document: 16-2 Page: 19 Filed:

American Federation of Government Employees
Local 12, AFL-CIO
October 20, 2014
U.s. Merit Systems Protection Board
Office of the Clerk of the Board
1615 M Street, N.W.
Washington, DC 20419
Re: Benoit Brookens v. U.S. Department of Labor
Docket No. CB-7121-13-0012-V-1
Dear Clerk of the Board:
As I was preparing to file my Exceptions to the
Administrative Judge’s Recommendation in the
, above referenced case I sought assistance from our
IT department because I was having some problems
saving the document in Microsoft Word. The IT
technician visited my office at approximately 6:00
p.m. and through some machinations lost the final
version of my brief. Between the two of us, we have
worked over two hours to retrieve the document.
This was not possible.
I have tried to recreate all the work I have done, but
it is impossible to complete this evening. It is
obviously too late in the evening to now contact the
Clerk of the Board (not that I can find a number on
the web site anyway). I need to retrieve the

40

document, and at sest that cannot occur until
tomorros. Please grant me until them to post the
brief. If it cannot be retrieved, I will need additional
time to recreate the final version. Please advise me
as to how to proceed.
Sincerely,
/S/
Eleanor J. Lauderdale, Esq.
Esxecutive Vice President
cc-' Roland Valdez
200 Constitution Avenue, NW N-1503, Washington
DC 20210, 202/693-6430, 693-6431 (fax)

41

United States Court of Appeals for the District of
Columbia
No. 18-5129 September Term, 2018
i:i6-cv-01390-T JK
Filed On^ September 19, 2018
Benoit Otis Brookens, II,
Appellant
v.
Department of Labor,
Appellee
BEFORE: Henderson, Millett, and Wilkins,
Circuit Judges
ORDER
Upon consideration of the motion for summary
affirmance, the response thereto,
and the reply, it is
ORDERED that the motion for summary affirmance
be granted. The merits of the parties' positions are so
clear as to warrant summary action. See Taxpayers
Watchdog, Inc. v. Stanley, 819 F.2d 294, 297 (D.C.
Cir. 1987)
(per curiam).
Appellant alleged that he was removed from his
position based on race and age discrimination and in
retaliation for protected union activity. After an
administrative judge with the Merit Systems
Protection Board ("MSPB") concluded that appellant
had failed to prove discrimination or retaliation, the
MSPB adopted the administrative judge's

42

recommended decision in a final order, and informed
appellant that any civil action must be filed in
district court within 30 days of receiving the order.
See 5 U.S.C. § 7703(b)(2); Kloeckner v. Solis, 568
U.S. 41,49-50 (2012). Appellant conceded that he did
not file his civil suit within 30 clays of receiving the
MSPB's final order. Assuming that the 30-day time
limit is subject to equitable tolling, appellant failed
to offer a valid basis to toll that deadline. See !2yson
v..Q~, 710 F.3d 415, 42'1 (D.C. Cir. 2013) (The
court will "toll a filing deadline 'only in extraordinary
and carefully circumscribed instances.'").
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published,
The Clerk

43

P-R-O-C-E-E-D-I-N-G-S
2 THE COURT: No. 15-15-68, Brookens
3 against Department of Labor.
4 Ms. Jenkins?
5 MS. JENKINS: Yes. Good morning.
6 This is probably going to be the
7 simplest case you're going to have today because
8 there's nothing technical in it.
9 This is about a brief that we tried to
10 file with the MSPB that was rejected by the
MSPB
11 as being late.
12 THE COURT-' Ms. Jenkins, can you start
13 where we are obliged to start, and that is this

44

MS. JENKINS: Oh, exactly. I believe
7 it should be here because I'm looking at your
8 decision in Conforto that came after Kloeckner.
9 Now if you don't agree that it was a jurisdictional
10 dismissal, which we believe it was a jurisdictional
11 dismissal -12 THE COURT: How was it a jurisdictional
13 dismissal? Because it was that you filed late
14 objections to the, I guess the EEO
recommendation,
15 and they said, "We're not going to hear it. We're

45

UNITED STATES OF AMERICA
* MERIT SYSTEMS PROTECTION BOARD
2008 MSPB 252
Docket No. CB-7121-08-0022-V-1
Jacquen Lee,
Appellant,
v.

Department of Labor,
Agency.
December 23, 2008
Eleanor J. Lauderdale, Esquire, Washington, D.C.,
for the appellant.
Jamila B. Minnicks, Esquire, Washington, D.C., for
the agency.
BEFORE
Neil A. G. McPhie, Chairman
Mary M. Rose, Vice Chairman

ORDER
16 This is the final decision of the Merit Systems
Protection Board in this request for review. Title 5 of
the Code of Federal Regulations, section 1201.113(c)
(5 C.F.R. § 1201.113(c)). NOTICE TO THE
APPELLANT REGARDING YOUR FURTHER
REVIEW RIGHTS You have the right to request
further review of this final decision. Discrimination
Claims' Administrative Review You may request the
Equal Employment Opportunity Commission
(EEOC) to review this final decision on your

46

discrimination claims. See Title 5 of the United
States Codes, section 7702(b)(1) (5 U.S.C. §
7702(b)(1)). You must send your request to EEOC at
the following address: Equal Employment
Opportunity Commission Office of Federal
Operations P.O. Box 19848 Washington, DC 20036
You should send your request to EEOC no later than
30 calendar days after your receipt of this order. If
you have a representative in this case, and your
representative receives this order before you do, then
you must file with EEOC no later than 30 calendar
days after receipt by your representative. If you
choose to file, be very careful to file on time.
Discrimination and Other Claims^ Judicial Action If
you do not request EEOC to review this final
decision on your discrimination claims, you may file
a civil action against the agency on both your
discrimination claims and your other claims in an
appropriate United States district court. See 5 U.S.C.
§ 7703(b)(2). You must file your civil action with the
district court no later than 30 calendar days after
your receipt of this order. If you have a
representative in this case, and your representative
receives this order before you do, then you must file
with the district court no later than 30 calendar days
after receipt by your representative. If you choose to
file, be very careful to file on time. If the action
involves a claim of discrimination based on race,
color, religion, sex, national origin, or a disabling
condition, you may be entitled to representation by a
court-appointed lawyer and to waiver of any

47

requirement of prepayment of fees, costs, or other
security. See 42 U.S.C. § 2000e-5(f); 29 U.S.C. §
794a. Other Claims: Judicial Review If you do not
want to request review of this final decision
concerning your discrimination claims, but you do
want to request review of the Board’s decision
without regard to your discrimination claims, you
may request the United States Court of Appeals for
the Federal Circuit to review this final decision on
the other issues in your appeal. You must submit
your request to the court at the following address:
United States Court of Appeals for the Federal
Circuit 717 Madison Place, N.W. Washington, DC
20439 The court must receive your request for review
no later than 60 calendar days after your receipt of
this order. If you have a representative in this case,
and your representative receives this order before
you do, then you must file with the court no later
than 60 calendar days after receipt by your
representative. If you choose to file, be very careful to
file on time. The court has held that normally it does
not have the authority to waive this statutory
deadline and that filings that do not comply with the
deadline must be dismissed. See Pinat v. Office of
Personnel Management, 931 F.2d 1544 (Fed. Cir
1991). If you need further information about your
right to appeal this decision to court, you should
refer to the federal law that gives you this right. It is
found in Title 5 of the United States Code, section
7703 (5 U.S.C. § 7703). You may read this law, as
well as review the Board’s regulations and other

48

related material, at our website,
httpV/www.mspb.gov. Additional information is
available at the court's website,
www.cafc.uscourts.gov. Of particular relevance is the
court's "Guide for Pro Se Petitioners and Appellants,"
which is contained within the court's Rules of
Practice, and Forms 5, 6, and 11. FOR THE BOARD:

William D. Spencer
Clerk of the Board Washington, D.C.

48

related material, at our website,
http://www.mspb.gov. Additional information is
available at the court's website,
www.cafc.uscourts.gov. Of particular relevance is the
court's "Guide for Pro Se Petitioners and Appellants,"
which is contained within the court's Rules of
Practice, and Forms 5, 6, and 11. FOR THE BOARD:

William D. Spencer
Clerk of the Board Washington, D.C.

49

NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
BENOIT BROOKENS,
Petitioner
v.
DEPARTMENT OF LABOR,
Respondent
2015-3084
Petition for review of the Merit Systems Protection
Board in No. CB-7121-13-0012-V-1.
Before TARANTO, SCHALL, and HUGHES, Circuit
Judges.
PER CURIAM.
ORDER
The Merit Systems Protection Board exercised
jurisdiction over Mr. Brookens’s appeal and adopted
the
administrative judge’s recommendation that he
failed to
prove that his removal from an economist position at
the
Department of Labor was in retaliation for his
engaging
in union activity or was motivated by age or race
discrimination.
Mr. Brookens timely appealed to this court, but
did not abandon his age or race discrimination
claims.

50

Under the statutory provisions that govern judicial
review
BROOKENS 2 v. LABOR
of Board decisions, federal district courts, not this
court,
have jurisdiction over “[c]ases of discrimination”
under 5
U.S.C. §§ 7702, 7703(b). See Kloeckner v. Solis, 133
S. Ct.
596, 607 (2012). Therefore, we exercise our authority
under 28 U.S.C. § 1631 and transfer the petition to
the
United States District Court for the District of
Columbia.
Accordingly,
IT IS ORDERED THAT:
The petition is transferred to the United States
District
Court for the District of Columbia pursuant to 28
U.S.C. § 1631.
FOR THE COURT
May 9, 2016 /si Peter R. Marksteiner
Date Peter R. Marksteiner
Clerk of Court

51

BEFORE THE MERIT SYSTEMS PROTECTION
BOARD
WASHINGTON, D.C.
Benoit Brookens,
Appellant

)
)

v.
0012-H-l

Docket No. CB-712M3)

U.S. Department
of Labor,
Appellee

)

APPELLANT'S EXCEPTIONS TO THE
RECOMMENDATION
OF THE ADMINISTRATIVE JUDGE
INTRODUCTION
Pursuant to the Board's order of April 11, 2014,
Appellant is availing himself of the opportunity to
challenge the recommendation issued by Judge
David A. Thayer on
September 5, 2014. As demonstrated herein, Judge
Thayer's findings and ultimate recommendation
(cited herein as "Rec. at p._") are not supported by
the record evidence. The judge appears to present an
overview of his general impression of the allegations
made by either side, but he does not rely upon an
independent assessment of the record evidence. This
is demonstrated by the fact that the only references
to the record noted by Judge Thayer are those noted
in the briefs of either Appellant or Appellee.
Additionally, it is noted that although the Board
remanded this case ordering that the administrative

52

\

judge "afford the parties the opportunity to submit
evidence and argument
under the proper standards ... the administrative
law judge declined to allow another hearing or the
introduction of evidence. 3This clearly deprived
Appellant of his right to
establish the affirmative defenses ignored by the
arbitrator.
Despite not hearing from any witness on the subject
of the affirmative defenses, and having no
opportunity to assess the witness's demeanor, Judge
Thayer made credibility determinations as to the
testimony of the proposing and deciding officials
offered before the arbitrator. Further, he interpreted
the testimony of Appellant's chief witness, Maureen
Pettis, to make it appear as though her testimony
supported the position of the Agency, when it clearly
did not. Judge Thayer's recommendation should be
following a May 1,2014 teleconference between
Judge Thayer and the parties, Appellant's counsel
wrote
to Judge Thayer inquiring as to why there would be
no additional hearing in line with the case, (Sadiqv.
Department of Veterans Affairs, 119 MSPR 450
(2013)), cited by the Board in its decision remanding
the case. Judge Thayer did not respond to this
specific inquiry but on May 2nd issued an order
spelling out the legal framework of the appeal, which
would be by the submission of briefs. On June 12th
Appellant's counsel again wrote to Judge Thayer
inquiring as to whether documentary evidence could
be augmented, and if so, how it would functionally be
done. Again, Judge Thayer offered no response to the
inquiry.

53

rejected because it is contrary to the Board's recent
finding in Ellis v. Us. Postal Service, 2014MS>VP> 73
(Sept. 9,2014), which the Board stated the following:
The Board must give deference to an
administrative judge's credibility
determinations when they are based, explicitly
or implicitly, on the observation of
the demeanor of witnesses testifying at a
hearing, and can overturn such
determinations only when it has "sufficiently
sound" reasons for doing so. (Citing
Haebe v. Department ofJustice, 288 F.3d
1288, 1301
(Fed. Cir. 2002»,' (Emphasis added. -4
As noted, in the instant case, Judge Thayer would
not conduct an evidentiary hearing; he did not
observe the demeanor of the witnesses. Therefore,
the Board cannot give deference to his credibility
determinations. Further, inasmuch as his
recommendation relies heavily upon his findings that
the proposing and deciding officials were credible
witnesses, and given that the judge did not analyze
the documentary evidence of record,
his recommendation must be rejected by the Board.
4 See Chavez v. Small Business Administration, 121
MSPR 168, -12 (2014) (Wherein the Board rejected the
administrative judge's recommendation because he failed
to "offer any demeanor-based assessments in support of
his conclusion that the deciding official considered the
appellant's length of service."); Connerv. Office of
Personnel Management, 120 MSPR 670,-13 (2014)(Where
appellant declined a hearing administrative law judge
could not be assailed for having not made credibility
determinations.)

54

I.

THE ADMINISTRATIVE JUDGE'S
RECOMMENDATION SHOULD BE
REJECTED BECAUSE THE JUDGE
ERRED IN STATING THAT THE
BOARD
FOUND THE REMOVAL PROPER.

In addressing appellant's Petition for Review, the
Board found that the arbitrator's findings that the appellant's
supervisor observed the appellant's
deficiencies and gave him an opportunity to
improve under valid performance standards ...
are entitled to deference. There is no showing
that these findings constituted errors of law.
Bd. Dec. at p. 7. Inasmuch as the Board found that
the arbitrator erred in failing to address appellant's
affirmative defenses, it refrained from making a final
determination as to the legitimacy or illegitimacy of
Mr. Brookens's removal. Instead, the Board
remanded the case for further adjudication of
allegations in the grievance that the arbitrator had
failed to consider. Thus, the Board's April 11, 2014,
Opinion and Order was not definitive as to the
removal. Despite this, on remand, Judge Thayer
stated that he accepted "the Board's ruling finding
no error in the arbitrator's decision that the removal
was proper and based on inadequate performance
under Chapter 43." Rec. at p. 2. This conclusion,
which is plainly wrong, served as the basis for Judge

55

Thayer's finding.5 Inasmuch as the Board made no
ruling as to the propriety of the removal, Judge
Thayer's entire decision is tainted by his mistaken
premise.6Thus, his recommendation should be
rejected.
II.

THE ADMINISTRATIVE JUDGE'S
RECOMMENDATION SHOULD BE
REJECTED BECAUSE IT IGNORES
THE REQUIREMENTS OF 5 C.F.R.
§430.207 AS WELL AS CBA ARTICLE
14, SECTION 6.

For the purpose of preserving the issue, we once
again challenge the notion that management was in
compliance with the CBA when it offered appellant a
mid-year

5 Judge Thayer stated specifically that he used as his
"baseline" the affirmed finding that "the agency has
shown a legitimate, nondiscriminatory reason for the
personnel action at issue." Rec. at p. 3. Thus, Judge
Thayer's reference point for consideration of the
affirmative defenses was that the affirmative defenses
were meritless. He then worked backwards to fill in the
spaces above his ultimate conclusion.
6 Furthermore, this illustrates how unreasoned
Judge Thayer's recommendation is. Had the Board
concluded that the removal was legally justifiable, it
would not have remanded the case for further
adjudication. The fact that the adjudicator would
even think tills to be a fact in this case indicates
either prejudging of the case or an inability to
properly analyze it.

56

review one day after placing him on a PIP. Although
the CBA was entered into evidence, and its
applicable CBA provision has been cited in both the
Post-Hearing Brief as well as in the Petition for
Review to the Board, it appears that no adjudicator
has read the provision. The parties' CBA states
specifically thatThe objectives of the Performance
Management System are met through regular
feedback. As part of this feedback, a progress
review must be held at least once during the
appraisal period no later than 120 days before
the end of the rating period.
CBA Art. 14, Sec. 6 (Emphases added). It is
undisputed that appellant was not given a mid-year
review during the appraisal period. The arbitrator
failed to address this matter, but the Board made a
ruling based on conjecture as to what the arbitrator
meant, given his ruling on another issue. The Board
noted that the arbitrator's finding that "appellant's
supervisor complied with the provisions of the CBA
when he placed the appellant on a PIP ...." was
"tantamount to a finding that the agency did not
violate the CBA by giving the appellant a mid-year
review 1 day after placing him on a PIP." Board's
Opinion and Order at 8. (Emphases added). Here,
the Board side-stepped a critical aspect of this case,
substantive due process, and decided the matter
based on what it assumed the arbitrator's ruling to
have been. Thus, the Board engaged in
impermissible fact finding, based on assumption.
This issue is far too important to be decided on
conjecture. The fact is that Arbitrator Javits declined

57

to address management's failure to provide appellant
the mid-year review mandated by the CBA.
The mid-year review spelled out in the CBA and the
informal corrective processes articulated under 5
C.F.R. Part 430 are not discretionary. They are
mandatory. Pursuant .to 5 C.F.R. §430.207, when a
supervisor deems an employee's performance to be
marginal he/she is obliged to provide "assistance"
and "progress reviews during each appraisal period."
This was not done with respect to Mr. Brookes. It is
undisputed that he was never given a mid-year
appraisal, but was instead presented with a PIP at
the very time the mid-year evaluation should have
taken place. Management violated 5 C.F.R.§430.207 .
as well as the CBA when it offered Mr. Brookens a
mid-year review after having issued the PIP. See
CBA Art. 14, Sec. 6. The mid-year assessment is
intended to assist the employee in improving
performance before any deficiencies rise to the level
of needing formal redress, such as implementation of
a PIP. Appellant's right to his federal position cannot
be obliterated where management has clearly
violated the laws intended to protect employees.
Further, the Board's statement that "appellant has
provided no basis for disregarding the deference due
to the arbitrator's interpretation of the CBA" is
meritless, given that the arbitrator failed to apply
and give any analysis to Article 14, Section 6 of the
CBA. In this case the Board can stand on the law
and the undisputed fact that appellant was not given
a mid-year review, as mandated by the CBA as well
as by the FSLMRS.
Ill.

THE ADMINISTRATIVE JUDGE'S
RECOMMENDATION SHOULD BE

58

REJECTED BECAUSE THE JUDGE
HELD APPELLANT TO THE WRONG
LEGAL
STANDARDS OF PROOF.
a. Similarly Situated Emnlovees-Judge Thayer
misapplied this standard in making his
determination as to whether appellant's comparators
were similarly
situated.
Judge Thayer's finding that the comparative
treatment between Mr. Brookens and his colleagues
is of no significance because they were not "similarly
situated comparators" is without merit. To the extent
that Judge Thayer uses the removal action against
the appellant to find that his colleagues are not
comparators, the judge has stepped beyond what is
legally permissible.
The standard Judge Thayer applied for determining
whether comparison employees were "similarly
situated" was based on three cases - Spahn v.
Department ofJustice, ^JM.S.P.R. 195 (2003); Bell
v. Department of the Treasury, 54 M.S.P.R 619
(1992); and Doev. Postal Service, 95 M.S.P.R. 493
(2004). Rec. at p. 4. Of these three cases, Doe is the
only one pertaining to a performance-based adverse
action. The other two cases arose
out of disciplinary actions. They are difficult to
extrapolate to a non-disciplinary case. For example,
in Spahn cannot readily be applied to a performancebased action, as Judge Thayer has done in the
instant action. In Spahn the Board discussed at
length comparators in a disciplinary context, as
follows^

59

The similarity of comparative employees is
governed by the similarity of their conduct and
related circumstances, not by what charges an
agency chooses to bring against them. ~11.
For other employees to be deemed similarly situated,
the Board has held that all relevant aspects of the
appellant's employment situation must be "nearly
identical" to those of the comparative employees.
[Citations omitted.] The Equal Employment
Opportunity Commission (EEOC) has stated the
matter in the following way: "To be similarly
situated, comparative employees must have reported
to the same supervisor, been subjected to the same
standards governing discipline, and engaged in
conduct similar to complainant's without
differentiating or mitigating circumstances." Harris
v. Henderson, EEOC No. 01982575 (Aug. 29, 2000).
We agree with the appellant's contention that it is
the similarity of the comparative employee's conduct
that is controlling, not what charges the agency
chose to bring against the employee. See Bottov. Us.
Postal Service, <977 M.S.P.R. 471, 477 (1997)
("comparative employees must have engaged in
conduct similar to the appellant's"); Richard, 66
M.S.P.R. at 153 (same) .:— 13-15.
Clearly, this case is distinguishable from the instant
case and should not have been cited by Judge Thayer
in his attempt to show that Mr. Brookens was not
similarly situated to his colleagues.
However, the case of Bell, supra, another
disciplinary case, is of some limited utility. It stands

60

for the proposition that employees in "different work
units and who work for different supervisors are not
similarly situated. At p. 15. This is not the
circumstance of the instant matter. ILAB is a very
small agency within the Department of Labor. As the
deciding official noted there are only 25 to 26
International Economists within his unit. Tr.
4/20112, p. 2337. Mr. Brookens and his colleagues all
shared the same job title - "International Economist,"
- and they all worked under Mr. Schoepfle. Tr. Ill,
pp. 35, 37, 41, 47. Thus, the facts of this case are
distinguishable from those in the Doe case.
In Doe the Board clarified that the "nearly identical
in all relevant aspects" standard pertained to duties
of the employees, not actions initiated against them
by the agency.
The Board stated that "in order to be considered
similarly situated, the appellant's employment
situation must be nearly identical to that of the
comparison employee in all relevant aspects." At ~
10. The Board added that the appellant, Doe, was not
similarly situated to his comparator because he and
the comparator had different duties. It undisputed
that other than support staff, all of the ILAB
employees under Mr.Schoepfle's supervision were
International Economists. Most importantly, in their
capacity as "International Economists", the duties for
which Mr. Brookens and his colleagues were
responsible were similar and interchangeable. At the
arbitral hearing, in an exchange on direct
examination, Mr. Schoepfle explained the similarity
of the job functions^
Q Describe your (sic- "the") responsibilities of
international economists on your staff, in the

61

Office of Trade and Labor Affairs, Trade and
Policy Division.
A Interactional economists usually have a mix
of responsibilities, providing policy advice on
various issues that come up, regarding trade
policy, sometimes even domestic policy, that
would have implications intentionally.
This requires analysis of different positions,
impact, assessments, doing some literature
search of studies that have been done, perhaps
either gathering information and data to make
informed recommendations for policy position.
So, it really, I think, depends on the specific
issues that comes up, but as I say, it's a mix of
analysis and policy, briefs, papers, writing.
Also involved is, at times, representing
the department in inter-agency meetings
and putting forth positions of the Department
of Labor. It also, sometimes, requires
engagement and negotiation with differing
views, to try to reconcile and reach a
consensus and recommendation for the
economic policy.
Tr. Ill, p. 37-38. Despite the similarly of job functions
noted by the deciding official, Judge Thayer
erroneously relied on Mr. Brookens's status as the
only GS-12 International Economist in the division
to justify his finding that Mr. Brookens was not

62

similarly situated to his colleagues.7Rec. at p. 6. This
baseless conclusion ignores the Board's recognition
that discriminatory motives can result in an
employee's promotional opportunities being
obstructed. See Fitzgerald v. Department of
Homeland Security, 107 M.S.P.R. 666
r22(2008)(finding that the agency discriminated
against the employee by "failing to select her to a
series of detail and promotional opportunities and
otherwise acting against her in those opportunities,
limiting her advancement thereby.") Mr. Brookens's
lower grade, arguably the result of discrimination,
cannot be used against him
to find that he was not comparable to the colleagues
with whom he shared the sameduties.68
Clearly, Judge Thayer misapplied the "similarly
situated" standard and inappropriately held Mr.
Brookens to the "identical" standard in a disciplinary
case. The judge stated that "[t] he appellant has
produced no evidence of any other similarly situated
employee not in his protected class who was found to
have unacceptable performance and failed a 120 day
5

>

7 The judge noted that Mr. Brookens was "the only
GS-12 international economist in the division
confirms
that he was not similarly situated because he was in
a lower grade than all the other economists .... " Rec.
atp.6.
8 6 Following his reinstatement, Mr. Brookens was
continuously denied promotions! the agency denied
his
numerous requests for desk audits. The agency even
constricted his work space, and complained about the

63

P/Pand was not removed." Rec. at p.ll. Even in
Spahn, the board specifically noted that the charges
the agency chooses to bring against an employee has
no bearing in the "similarly situated" determination.
Spahn at 202. It concluded that "to do otherwise
would permit an agency to insulate itself from a
finding of prohibited discrimination." IdsX, 202-203.
Had the appropriate standard been applied, Judge
Thayer could not conceivably have reached the
conclusion that he did. Had Judge Thayer applied
the appropriate legal standard, he would have found
Mr. Brookens to be similarly situated to his
colleagues,
and thus, could not have so readily dismissed a key
piece of evidence-the deciding official's admission
that he declined to remove from the Federal Service
employees who may have been performing below the
level of Mr. Brookens.
b. The Crediting of Testimony - This was
beyond the scope of the administrative judge's
authority.
Mr. Schoepfle testified that he placed the appellant
in the "lower tier" of the people in office. Tr.
2125/2010, p. 176-177. If higher graded employees
landed in the same lower strata as Mr. Brookens,
and given that greater performance is expected from
higher graded workers, it is inexplicable as to why
these underperforming higher graded employees
were retained by Mr. Schoepfle.
Even if, arguendo, Mr. Brookens was in the "lower
tier," it does not explain the agency's decision to
remove Mr. Brookens and simultaneously take no
action against his lesser performing coworkers. It is

64

essential to reiterate here, that all of Mr. Brookens's
coworkers were white; he was the only African'
American International Economist. Judge Thayer
failed to satisfactorily address why he placed so little
weight on Mr. Schoefle's admission that lesser
performing white International Economists were
retained, while the one African-American
International Economist was removed. The only
things that distinguished Mr. Brookens from his
comparators were his race, age, and union activism,
official time he utilized. Thus, at the time of hearing,
Mr. Brookens had fourteen (14) pending grievances
against ILAB. Tr.. 4/20112, at p. 2254. The Agency's
failure to promote Mr. Brookens cannot be used as
leverage against him as he is charging the Agency
with discrimination.
The judge credited Mr. Schoepfle's statement that he
had no improper motive in making his decision to
remove the appellant. Rec. at p. 11. Instead of
explaining how Mr. Scheopfle's statement that there
may have been lesser performing employees whom
he elected not to remove could reflect anything other
than preferential treatment for white workers, Judge
Thayer decided to credit the self-exculpatory
statement he never heard uttered by Mr. Schoepfle.
•Judge Thayer has provided no reason as to why he
credited the self-serving testimony of Mr. Schoepfle.
Further, as noted above, the crediting of hearing
testimony is beyond this judge's scope of review
because he declined to hold a hearing. See Ellis v.
Us. Postal Service, 2014 MSPB 73 (Sept. 9,2014).
This clearly constitutes legal error, providing yet
another reason for the Board to reject Judge Thayer's
recommendation.

65

c. Direct Evidence/Circumstantial Evidence-”
Judge Thayer inappropriately held appellant
to a heightened evidentiary standard by
requiring direct
evidence of discrimination.
Judge Thayer held that Mr. Brookens failed to
present "any direct evidence of [race or age]
discrimination." Rec. at p. 4. In adjudicating this
matter based on the premise that
appellant must present "direct evidence" of
discrimination, Judge Thayer inappropriately held
Mr. Brookens to a heightened standard of
evidentiary proof. This constitutes legal error.
The courts have repeatedly and consistently held
that discrimination may be established by either
direct or circumstantial evidence, with the
understanding that direct evidence of discrimination
is rarely available. See Us. Postal Service Board of
Governors v. Aikens,460 US. 711, 714, n.3 (1983)
(holding that "[t]here will seldom be 'eyewitness
testimony as to the employer's mental processes.")
The Supreme Court has stated that it will rely on the
conventional rule of proving discrimination under
Title VII of the Civil Rights act. The conventional
rule
requires a plaintiff to prove his case "by a
pereponderance of the evidence," [citation
omitted]using "direct or circumstantial evidence,"
Postal Service Bd. of Governors v. Aikens, 460 U.S.
711, 714, n.3 (1983). We have often acknowledged
the utility of circumstantial evidence in
discrimination cases. For instance, in Reeves v.
Sanderson Plumbing Products, Inc.. 530 U..S. 133

66

(2000), we recognized that evidence that a
defendant's explanation for an employment
practice is "unworthy of credence" is "one form
of circumstantial evidence that is probative of
intentional discrimination." Id., at 147
(emphasis added). The reason for treating
circumstantial and direct evidence alike is
both clear and deep-rooted: "Circumstantial
evidence is not only sufficient, but may also be
more certain, satisfying and persuasive than
direct evidence." Rogers v. Missouri Pacific R.
Co. 352 U.S. 508 n. 17 (1957) .
Desert Palace, Inc. v. Costa, 539 U.S. 90, 99100 (2003). Thus, the stricter standard of proof
ordered by Judge Thayer is contrary to the
Supreme Court's dictate. Therefore, his
evaluation of the record evidence under this
heightened standard of proof must be rejected.
9

d. Mosaic Standard-Judge Thayer erroneously
assessed each piece of evidence on its
9 7 Further, in Desert, the Court noted that even in
criminal cases, where there is a higher burden of
proof,
"juries are routinely instructed that '[t]he law makes
no distinction between the weight or value to be
given
to either direct or circumstantial evidence.' IA K.
O'Malley, J. Grenig, & W. Lee, Federal Jury Practice
and Instructions, Criminal §12.04 (5th ed. 2000)>' see
also 4 L. Sand, J. Siffert, W. Loughlin, S. Reiss, & N.
Batterman, Modem Federal Jury instructions 74.01
(2002) (model instruction 74 2)." At p. 100.

67

individual merit, rather than properly the
elements
of the mosaic as a whole.
By evaluating each piece of evidence on its individual
merit, rather than weighing them in their aggregate
as required under the mosaic standard, Judge
Thayer misapplied the mosaic standard. The Board
has recognized that a mosaic of circumstantial
evidence may evince unlawful discrimination; that
the mosaic of evidence standard used in retaliation
cases may also be utilized in discrimination cases.
The mosaic of evidence standard was articulated
succinctly by the Board in FitzGerald v. Department
ofHomeland Security, 107 MSPR 666 (2008). The
Board stated that—
to show retaliation using circumstantial
evidence, an appellant must provide evidence
showing a "convincing mosaic" of retaliation
against her. Troupe v. May Dept. Stores Co.,
20 F.3d 734, 737 (7th Cir. 1994). A mosaic is a
work of visual art composed of a large number
of tiny tiles that fit smoothly with each other,
a little like a crossword puzzle. A case of
discrimination can likewise be made by
assembling a number of pieces of evidence non
meaningful in itself, consistent with the
proposition of statistical theory that a number
of observations, each of which support a
proposition only weakly can, when taken as a
whole, provide strong support if all point in
the same direction: 'a number of weak proofs
can add up to a strong proof. '

68

Sylvester v. SOS Children's Villages Illinois, Inc.,
453 F.3d 900, 903 (7th Cir. 20(6) (quoting Matayav.
Kingston, 371 F.3d 353,358 (7th Cir. 2004)). At ~20.
This ruling by
the Board is in line with the principle generally
adhered to in the federal courts that [a] case of discrimination can ... be made by
assembling a number of pieces of evidence non
meaningful in itself, consistent with the
proposition of statistical theory that a number
of observations, each of which support a
proposition only weakly can, when taken as a
whole, provide strong support if all point in
the same direction: 'a number of weak proofs
can add up to a strong proof.
Matayav. Kingston, 371 F.3d 3:53, 358 (7th Cir.
2004). Judge Thayer's statement that he could "place
little, if any weight on appellant's first or second
points in his 'mosaic' ," Rec. at p. 6, aptly sums up
what was his entire approach to the evidence
presented by Mr. Brookens. He erroneously
addressed each piece of the mosaic individually, as
opposed to as part of the mosaic! he failed to assess
the collective weight of the various pieces. In so
doing, Judge Thayer misapplied the "mosaic"
standard and perpetuated the erroneous assessment
of the circumstantial evidence the standard was
created to preclude.
As a general rule, this mosaic has been defined to
include three general types of evidence, all of which
Judge Thayer dispelled: (l) evidence of suspicious
timing, ambiguous oral or

69

written statements, behavior toward or comments
directed at other employees in the protected group,
and other bits and pieces from which an inference of
retaliatory intent might be drawn,' (2) evidence that
employees similarly situated to the appellant have
been better treated; and (3) evidence that the
employer's stated reason for its actions is pretextual.
Troupe, 20 F.3d at 736-37. Evidence of all three were
presented to the arbitrator and were part of the
record reviewed by Judge Thayer, to wit:
(l) Evidence ofsuspicious hiring and
departure ofthe proposing official ~
The timeframe of Mr. Wedding's tenure at ILAB and
the immediacy with which he placed Mr. Brookens
on a PIP is suspicious. It was undisputed that the
Agency specifically sought to hire a supervisor with
PIP experience, who, upon his retention, almost
immediately placed Mr. Brookens on a PIP. He then
left the position within thirty (30) days of Mr.
Brookens's removal from the Federal Sector.810
The significance of the vacancy announcement for
the supervisor who became the proposing official
(Timothy Wedding) was grossly underestimated in
Judge Thayer's recommendation. The vacancy
announcement included a solicitation for someone
with PIP experience. As the deciding official
explained, "this question, about using a PIP, was
added along with other additional questions to a
10 8 It was undisputed at all levels of this litigation
that after Mr. Wedding effectuated Mr. Brookens's
removal on November 19, 2008, he left his
employment with DOL in December of 2008.

70

second vacancy announcement after the first one
[vacancy announcement] failed to attract a sufficient
pool of qualified applicants." Rec. at p. 7. Judge
Thayer mischaracterized this fact as proof that the
Agency was not searching for a new supervisor to
issue a PIP targeted at Mr. Brookens, musing that if
that was the Agency's intent, he "would have
expected that question to be part of the first vacancy
announcement." Rec. at pp. 7-8. However, just the
opposite is true.
Upon the failure of the first vacancy announcement,
which was silent on the necessity of prior PIP
experience, "to attract a sufficient pool of qualified
candidates," Rec. at p. 7, the Agency tailored and
reissued the vacancy announcement to attract "more
qualified", candidates. Union Exhibit#lQ. The
Agency's need to highlight the qualification of "prior
PIP experience," indicates just how important a
consideration it was to its assessment of a qualified
candidate. This is particularly relevant in light of the
suspicious timeframe of the supervisor's tenure in
ILAB.
Mr. Wedding maintained his supervisory position at
ILAB for a mere 15 months, from September of 2007
to December of 2008. Just eight (8) workdays after
assuming the
position as Mr. Brookens's supervisor, Mr. Wedding
purportedly perceived deficiencies in Mr. Brookens's
performance.f11 Yet, at the time Mr. Wedding issued
119 Judge Thayer surmised, without any evidence,
that there was nothing to show that Mr. Wedding
had not observed Mr. Brookens's performance from
his coming on board in September of 2007 to the end

1

A .

71

the PIP, Mr. Wedding was still going through on-thejob training for his new supervisory position. As
noted above, one month after Mr. Brookens removal
was effectuated, Mr. Wedding left ILAB.
Judge Thayer neglected to address all of the unusual
events surrounding Mr. Wedding's selection and all
of the events that occurred during his very short
tenure at ILAB. Viewing in isolation the events " the
vacancy announcement, Mr. Wedding's immediate
dissatisfaction with Mr. Brookens's performance, Mr.
Wedding's failure to provide Mr. Brookens's with a
mid-year assessment, the speed with which he placed
Mr. Brookens on a PIP, the proposal to remove an
employee with whom there was little familiarity, Mr.
Brookens's actual removal, and finally Mr. Wedding's
then rapid departure from ILAB --all individually
may appear to be innocuous events. However, when
pieced together, they create a mosaic of
discriminatory actions designed to assure Mr.
Brookens's removal.
of ovember of 2007. However, the uncontested
evidence of record shows that Mr. Wedding became
Mr. Brookens supervisor on November 13, 2007,
when he placed Mr. Brookens on Performance
standards. It has been uncontested throughout this
litigation that on December 8, 2007 Mr. Wedding
met with Mr. Brookens to express his displeasure
with his performance. It has also been uncontested
that because both men took leave during the 3-week
period, they worked together for only eight days. Tr.
4110112, pp.2305-2306. Judge Thayer has no basis
upon which to reject the undisputed evidence of
record.

1

72

(2) Similarly situated-Judge-Thayer ignored
record evidence showing that similarly
situated employees were better treated,
receiving more promotional
opportunities and leniency with regard to
perceived performance deficiencies.
As previously discussed, Judge Thayer misapplied
the "similarly situated" standard, and instead held
Mr. Brookens to a higher standard. This was an
error. Applying the appropriate standard, the
testimony of the deciding official himself, Mr.
Scheotle, confirmed that he took no action against
similarly situated whom he deemed to be lesser
performing employees. Judge Thayer drew various
unsubstantiated inferences from the record but failed
to view Mr. Scheofle's statement as a tacit admission
of discrimination. Judge Thayer's selective analysis
of the record should be rejected by the Board. Mr.
Brookens was also victim to the Agency's deliberate
obstruction of his promotional opportunities. Rec. at.
p. 10. Mr. Brookens's colleague, and fellow
Interactional Economist, Maureen Pettis, offered
uncontested testimony that the Agency declined to
announce promotional opportunities because
appellant would have been eligible to apply. Tr.
4120112, pp. 2341-2342. Judge Thayer erroneously
dismissed the significance of this testimony as a
legitimate management decision, stating "[wlhether
right or wrong it shows that management was trying
to avoid grievances and avoid opportunities where
grievances could be filed." Rec. atp. 10. What Judge
Thayer has termed as a "legitimate management
decision" amounts to an unlawful discriminatory
practice, a practice meant to thwart the exercise of

73

employees' rights to seek redress of what they deem
prohibited personnel practices. See generally.
FitzGerald v. Department ofHomeland Security, 107
M.S.P.R. 666, ~25 (2008)(where the Board
overturned a removal based on the employee's
exercise of her protected rights). The judge's logic
here is askew! the Board cannot adopt a
recommendation that gives an agency the right to
mount obstacles to redressing prohibited personnel
practices.
(3) Pretext ofthe Agency-Judge Thayer
ignored record evidence showing that the
Agency's actions were motivated by prohibited
considerations.
Here the totality of the evidence demonstrates that
discriminatory motives were a factor in Mr.
Brookens' removal action. The deciding official's
admission that no adverse action was taken against
lesser performing, similarly situated employees! the
Agency's obstruction of his promotional
opportunities! the suspicious timeframe of Mr.
Wedding's tenure at ILAB, ending one month after
Mr. Brookens' removal! all establish that Mr.
Brookens was treated differently from his similarly
situated co-workers. The only characteristics
distinguishing Mr. Brookens from his similarly
situated comparators are his race, age, and union
activity. The record demonstrates that unlawful
discriminatory factors such as race, age, and union
activity was a motivating factor in the Agency's
decision to remove Mr. Brookens.
At the very least, Mr. Brookens history of exercising
his rights as an employee played a pivotal role in the

74

Agency's treatment of him. Judge Thayer himself
acknowledged that the record demonstrates Mr.
Brookens' filing of grievances played a role in the
Agency's decision to interfere with Mr. Brookens'
promotional opportunity by declining to openly
announce higher-graded positions within ILAB.
Disparate treatment of Mr. Brookens, motivated by
his exercise of legal rights, equals unlawful
discrimination. See generally, FitzGerald, supra.
Under the mosaic standard, the aggregate of the
various incidents of disparate treatment against Mr.
Brookens creates a total picture of discrimination.
IV.

JUDGE THAYER ERRED IN HIS
ASSESSMENT OF THE RECORD
EVIDENCE PERTAINING TO THE
CHARGE OF RETALIATION FOR
UNION ACTIVITIES.

Judge Thayer held that "[t]he appellant failed to
provide any evidence of union activity against the
proposing or deciding officials that might create
motivation to retaliate." Rec. at p. 15. Again, Judge
Thayer is holding Mr. Brookens to a heightened
standard of proof created by the judge, not by the
prevailing applicable law. The Board has rejected the
standard employed by Judge Thayer in FitzGerald,
supra, expressing that:
EEOC Compliance Manual states as follows:
There is no requirement that the entity
charged with retaliation be the same as the
entity whose allegedly discriminatory
practices were opposed by the charging

75

party. For example, a violation would be found
if a respondent refused to hire the charging
party because it was aware that she opposed
the previous employer's
allegedly discriminatory practices. EEOC
Compliance Manual, No. 915.003 at 8’ 9 (May
20, 1998). The arbitrator thus erred when he
limited the appellant to
introducing evidence ofretaliation only where
such evidence "could be connected to any of the
management officials who played a role in the
decision to terminate"the appellant.
At Para. 25 (Emphasis added). Clearly, Judge
Thayer erred in reviewing the issue of union
retaliation because he applied a standard that is not
viable. Therefore, the Board must reject all of his
findings and recommendations as they pertain to
retaliation for union activities.
CONCLUSION
Judge Thayer's Recommendation is replete with
applications of improper legal standards. Further,
his findings are, in many instances, based on
credibility determinations, which
are impermissible given his refusal to hold an
evidentiary hearing. Further, it is clear that the
administrative law judge failed to do an in-depth
analysis of the record evidence.
For all of the reasons noted herein, appellant
respectfully requests that the Board reject Judge
Thayer's Recommendation.

76

Respectfully submitted,
Eleanor J. Lauderdale, Esq.
Counsel for Appellant

MikaDewitz
Legal Intern

77

UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT
BENOIT BROOKENS v. DEPARTMENT OF
LABOR
No. 2015-3084
PETITIONER'S FED. CIR. R. 15(c) STATEMENT
CONCERNING DISCRIMINATION
Please complete sections A, B. and C.
Section ACheck the statements below that apply to your case.
Usually, it is one statement, but it may be more. Do
not alter or add to any of the statements.
[ ] (1) No claim of discrimination by reason of race
sex, age, national origin, or handicapped condition
has been or will be made in this case.
[ ](2) Any claim of discrimination by reason of race,
sex, age, national origin, or handicapped condition
raised before and decided by the Merit Systems
Protection Board or arbitrator has been abandoned
or will not be raised or continued in this or any other
court.
[X](3) The petition seeks review only of the Board's
or arbitrator's dismissal of the case for lack of
jurisdiction or for untimeliness.
[ ](4) The case involves an application to the Office of
Personnel Management for benefits.
[ ](5) The case was transferred to this court from a
district court and I continue to contest the transfer.
Section B:

78

Answer the following: Have you filed a
discrimination case in a United States district court
from
the Board's or arbitrator's decision? [ ] Yes [X] No If
yes, identify any case.
[Stamp] [RECEIVED
MAY 2, 2016
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT]
Section C:
Answer the following: Have you filed a
discrimination case in the Equal
Opportunity Commission from the Board's or
arbitrator's decision? [ ] Yes [X] No If yes, identify
any case.
APRIL 25,2016
[Signature]
Date Petitioner's signature
Mail this form with the petition for review or within
14 days of the date of docketing of the petition for
review to:
Clerk of Court
United States Court of Appeals for the Federal
Circuit
717 Madison Place, NW
Washington, DC 20439
cc; Alexis J. Echols, Esq., USDOJ

79

[UNION EXHIBIT #16]
Page 1 of 12
Department of Labor
Agency - Bureau of International Labor Affairs
Sub Agency: U.S. Department of Labor
Job Announcement Number:
ILAB 07-157DE
SUPERVISORY INTERNATIONAL ECONOMIST
Salary Range: 110,363.00-143,471.00 USD
Open Period: Tuesday, July 10, 2007
to Tuesday, July 24, 2007
Series& Grade: GS-0110-15/15
Promotion Potential: 15
This position is also being advertised as
Vacancy Announcement ILAB-07-157M for
Status applicans and, to be considered for both
status
and non-status you must apply to each.
[Page 108 of 151]
18. Have you ever designed and used a performance
improvement plan (PIP) for
a poorly-performing employee?
Yes No
[Page 115 of 151]

